No. XXXXX

In The
Supreme Court of the United States

VERONICA W. O'GUNSULA,
Petitioner
vs.
WILLIAM P. BARR, ATTORNEY GENERAL,
ET AL
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Fourth Circuit

Petition For Rehearing

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20792
240-486-1427
Nona.Ogunsula@gmail.com
Petitioner

TABLE OF AUTHORITIES
Cases
Comcast Corporation vs National Association of African
American-Owned Media, et al, Argument before the
Supreme Court, November 13, 2019, Case No. 18-1171 6
Enrique MONTOYA, Neyser Colonia and XI Chen
Lauren, et al, Plaintiffs, v. PNC BANK, N.A., et al.,
Defendants. 94 F.Supp.3d 129, June 7, 2016....
7
Sause vs. Bauer, 138 S. Ct 2561, 2018...................
4
STUMM, Plaintiff-Appellant, v. Robert WILKIE,
Secretary of Veterans Affairs, Defendant-Appellee., No.
18-2978, 2019
6

In The
Supreme Court of the United States
VERONICA W. OGUNSULA,
Petitioner
vs.
WILLIAM P. BARR, ATTORNEY GENERAL,
ETAL.
Respondents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the
Fourth Circuit

Petition For Rehearing

Pursuant to Rule 44 of this Court, the Petitioner,
Veronica W. Ogunsula, hereby respectfully
petitions for rehearing of its order dated
November 25, 2019, which denied certiorari, and
that the Court now grant certiorari.
This case alleges civil rights violations and several
other allegations that were characterized as
witness intimidation and retaliation, theft and
unlawful use of intellectual property that occurred
over a period of years from 2008 to 2015 when the

Petitioner submitted a federal complaint. At the
time the Petitioner believed that the impetus for
the acts stated in the initial complaint was related
to her reporting to local government managers and
other state and federal authorities that she had
done as a contract employee for Prince George’s
County Government. However, as time went on
the Petitioner saw evidence the allegations were
connected to reports she had made to Congress
and to federal law enforcement.
In May 2015, the Petitioner submitted a complaint
in the U.S. District Court in Washington, D.C.
Referencing the property interests included in the
complaint, namely her foreclosed property, a
federal District Court Judge, transferred the
complaint to the U.S. District Court in Maryland
in Greenbelt.
This was the first federal complaint the pro se
Plaintiff had ever written and she admits that it
was in artfully pleaded. The Supreme Court said
most recently in Sause vs. Bauer that the District
Court is ‘required to interpret the pro se complaint
liberally’. This is most often quoted in pro se cases
but its meaning goes beyond the mere quotation of
the words. In this case, Mary Anne Sause, a
complainant who was initially pro se in the lower
court plead a First Amendment and Fourth
Amendment violation of her rights. On appeal she
was represented by counsel and only argued her
First Amendment violation.
Although not argued, the Supreme Court actually
took into consideration her Fourth Amendment

claim that the pro se plaintiff had not pursued on
appeal. They stated:
We appreciated that the petitioner
elected on appeal to raise only a First
Amendment argument and not to pursue an
independent Fourth Amendment claim, but
under the circumstances, the First
Amendment claim demanded consideration
of the ground on which the officers were
present in the apartment and the nature of
any legitimate law enforcement interests
that might have justified an order to stop
praying at the specific time in question.
Without considering these matters, neither
the free exercise issue nor the officers’
entitlement to qualified immunity can be
resolved. Thus, petitioner’s choice to
abandon her Fourth Amendment claim on
appeal did not obviate the need to address
these matters.
(Sause vs. Bauer, 138 S. Ct 2561, 2018)
The Court then granted the Petition for a writ of
certiorari and reversed the judgment of the 10th
Circuit. They remanded the case for further
proceedings consistent their opinion.
This Petitioner argues that this did not happen in
her case. She was not given notice of an impending
adverse action and was not given an opportunity
to respond.

Further, when the Petitioner submitted the
unartfully plead complaint, not being a lawyer,
she did not anticipate statute of limitations,
qualified immunity, or possible defense
arguments. She did not plead elements of the civil
rights statutes. To the best of her ability, she
stated allegations of wrongdoing. She did not even
include all of the acts with dates because she
anticipated having an opportunity to refine her
complaint or being given an additional opportunity
to be heard. She definitely stated that there had
been acts of retaliation that took place within the
time period of 2012 - 2015 which is within the
statute of limitations for a Section 1983 claim.
The Supreme Court has stated that pleading
standards for civil rights cases are different at the
complaint stage. In this type of case, a plaintiff
need plead only the type of discrimination, when it
occurred, and by whom. (See Swierkiewicz v.
Sorema N.A., 534 U.S. 506, 514-15, 122 S.Ct. 992,
152 L.Ed.2d 1 (2002); Swanson v. Citibank, N.A.,
614 F.3d 400, 404 (7th Cir. 2010) (concluding that
Swierkiewicz survived Bell Atl. Corp. v. Twombly,
550 U.S. 544, 127 S.Ct. 1955, 167 L.Ed.2d 929
(2007) and Ashcroft v. Iqbal, 556 U.S. 662, 129
S.Ct. 1937, 173 L.Ed.2d 868 (2009)). And no
matter the type of case (as long as Rule 9(b) is not
involved), a plaintiff is not required to plead legal
theories, let alone to plead facts that correspond to
“elements” of any particular claim. Chapman v.
Yellow Cab Coop., 875 F.3d 846, 848 (7th Cir.
2017); see also Johnson v. Shelby, 574 U.S. 10, 11,
135 S.Ct. 346, 190 L.Ed.2d 309 (2014) (explaining

that the Federal Rules “do not countenance
dismissal of a complaint for imperfect statement of
the legal theory”) (STUMM, Plaintiff-Appellant, v.
Robert WILKIE, Secretary of Veterans Affairs,
Defendant-Appellee., No. 18-2978, 2019)
Moreover, Recently at the Supreme Court during
the Comcast vs. National Association of African
American-Owned Media, et. al argument on
November 13, 2019, Justice Kagan said:
“Swierkiewicz (i.e., referring to Swierkiewicz vs
Sorema, 534 U.S.506, 2002), said that you don’t’
actually have to in your pleadings even show the
prima facie case, that we understand pleadings in
this field are really different. And - Iqbal and
Twombly says, yeah, that’s still good law.” (See
Comcast Corporation vs National Association of
African American-Owned Media, et al, Argument
before the Supreme Court, November 13, 2019,
Case No. 18-1171.)
In essence Swierkiewicz and Rule 8 regarding
pleading standards for civil rights claims still are
controlling. Further the Comcast/NAAAOM is
examining civil rights pleading standards as it
relates to Section 1981. Some of the allegations in
the initial complaint due lend themselves to
Section 1981 claims. The pro se plaintiff was not
aware of the specifics of that civil rights statute.
This case should be granted, vacated and
remanded based on the outcome of the
Comcast/NAAAOM case, especially as it relates to
any allegation connected to possible employment
discrimination and contract discrimination claims.

Additionally, this Comcast case also highlights the
disparities of being able to amend your initial
complaint. Although the Comcast characterized
NAAAOM’s allegations and legal theories as
outlandish and conspiratorial, NAAAOM had been
able to amend their complaint three (3) times. In
MONTOYA, Neyser Colonia and XI Chen Lauren,
et al, Plaintiffs, v. PNC BANK, N.A., et al.,, in
referencing the Johnson vs the City of Shelby case,
the District Court stated, “Plaintiffs may,
consistent with their Rule 11 requirements,
amend their Complaint to more-clearly allege an
Ohio breach of contract claim for the breach of the
implied good faith duty (and to remove the
unavailable separate claim for breach of implied
covenant of good faith and fair dealing)”. The
Court granted the Motion to dismiss the
unavailable claim without prejudice, but noticed
them of their right to amend their complaint. This
was the plaintiff, Montoya et al’s third (3)
amended complaint. (Enrique MONTOYA, Neyser
Colonia and XI Chen Lauren, et al, Plaintiffs, v.
PNC BANK, N.A., et al., Defendants. 94
F.Supp.3d 129, June 7, 2016)

CONCLUSION
For the foregoing reasons set forth in the Petition
for Rehearing, as well as in the Petition for
Certiorari previously filed, this Petitioner is
requesting the U.S. Supreme Court grant this
Petition For Rehearing and Certiorari.
•

Dated:

December 20, 2019

Respectfully submitted,

Gj^wO'iiJxiay Q)^/^(0aa/n/k//,a;

Veronica W. Ogunsula, Pro Se

CERTIFICATE

This Petition is being presented in good faith and
not for delay and limited to the grounds specified
in Rule 44.2.
3)/eve-niea'

Veronica W. Ogunsula, Pro Se

